No. _____

In the

Supreme Court of the United States
__________________
CONSTRUCTION COST DATA, L.L.C.; THE JOB ORDER
CONTRACT GROUP, L.L.C.; MANAGED J.O.C.
SOLUTIONS, L.L.C.,
Petitioners,
v.
THE GORDIAN GROUP, INCORPORATED; R.S. MEANS
COMPANY, L.L.C.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

__________________
PETITION FOR WRIT OF CERTIORARI

__________________
NOLAN C. KNIGHT
Counsel of Record
MUNSCH HARDT KOPF & HARR, P.C.
3800 Ross Tower
Suite 3800
500 North Akard
Dallas, Texas 75201
(214) 855-7500
nknight@munsch.com
Counsel for Petitioners
January 8, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
According to this Court’s First Amendment
jurisprudence, “the knowingly false statement and the
false statement made with reckless disregard of the
truth, do not enjoy constitutional protection[,]”
Garrison v. Louisiana, 379 U.S. 64, 75 (1964), and “the
States may define for themselves the appropriate
standard of liability for a publisher or broadcaster of
defamatory falsehood injurious to a private individual.”
Gertz v. Robert Welch, Inc., 418 U.S. 323, 347 (1974).
A jury found Respondents liable for Business
Disparagement (as well as other state-law liabilities),
because they “published a disparaging false statement”
and “knew the falsity,” “acted with reckless disregard,”
or “acted with ill will or intended to interfere.”
Respondents nevertheless negated the liability by
invoking a First Amendment doctrine known as “NoerrPennington,” which is applied in markedly inconsistent
ways by the circuits.
The questions presented are as follows:
1. Whether the Noerr-Pennington doctrine has
been improperly expanded beyond its First
Amendment moorings to insulate knowingly,
recklessly, or intentionally false statements.
2. Whether the Noerr-Pennington doctrine is
irreconcilable with jury findings against
Respondents in this matter—all of which were
premised on “appropriate standard[s] of
liability” established by the state of Texas, which
parallel the outward limits of First Amendment
protections.

ii
3. Whether these errors were sufficiently presented
to the courts below.

iii
PARTIES TO THE PROCEEDING
Petitioners Construction Cost Data, L.L.C.; The Job
Order Contract Group, L.L.C; and Managed J.O.C.
Solutions, L.L.C. were the plaintiffs in the District
Court and appellants/cross-appellees in the Court of
Appeals.
Respondents Gordian Group, Inc. and R.S. Means
Company, L.L.C. were the defendants in the District
Court and appellees/cross-appellants in the Court of
Appeals.

iv
CORPORATE DISCLOSURE STATEMENT
Construction Cost Data, L.L.C.; The Job Order
Contract Group, L.L.C; and Managed J.O.C. Solutions,
L.L.C. do not have parent companies, and there is no
publicly held company that owns 10% or more of the
stock of Construction Cost Data, L.L.C.; The Job Order
Contract Group, L.L.C; or Managed J.O.C. Solutions,
L.L.C.

v
STATEMENT OF RELATED PROCEEDINGS
• Construction Cost Data, L.L.C., et al. v. Gordian
Group, Inc., et al., No. 19-20482 (5th Cir.)
(opinion issued June 30, 2020; rehearing denied
August 11, 2020; and judgment entered August
19, 2020)
• Construction Cost Data, L.L.C., et al. v. Gordian
Group, Inc., et al., No. 4:16-CV-0114 (S.D. Tex.)
(final judgment entered February 6, 2019)
Apart from the proceedings directly on review in
this case, there are no other directly related
proceedings in any court.

vi
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING. . . . . . . . . . . . . iii
CORPORATE DISCLOSURE STATEMENT . . . . . iv
STATEMENT OF RELATED PROCEEDINGS . . . . v
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . ix
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . 2
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 5
A. CCD’s Competition with Gordian in the “Job
Order Contracting” Industry . . . . . . . . . . . . . . . . 5
B. CCD’s State-Law Claims against Gordian . . . . . 7
C. The Jury Charge and Verdict. . . . . . . . . . . . . . . . 9
D. Gordian’s Invocation of Noerr-Pennington . . . . 12
E. CCD’s Trial and Appellate Contentions that the
Jury Findings Were Irreconcilable with NoerrPennington . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
REASONS FOR ALLOWING THE WRIT . . . . . . . 23

vii
A. Certiorari is Warranted regarding the
Unworkable State of Noerr-Pennington
Jurisprudence . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
B. Certiorari is Warranted because the Jury’s
Findings Gordian Made Maliciously False
Statements Illuminates the Inequitable and
Arbitrary Impacts of Noerr-Pennington. . . . . . . 38
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Fifth Circuit
(June 30, 2020) . . . . . . . . . . . . . . . App. 1
Appendix B Memorandum and Order in the
United States District Court Southern
District of Texas Houston Division
(February 22, 2019) . . . . . . . . . . App. 25
Appendix C Final Judgment in the United States
District Court Southern District of
Texas Houston Division
(February 6, 2019) . . . . . . . . . . . App. 66
Appendix D Memorandum and Order in the
United States District Court Southern
District of Texas Houston Division
(June 24, 2019) . . . . . . . . . . . . . . App. 68
Appendix E Order Denying Petition for Panel
Rehearing in the United States Court
of Appeals for the Fifth Circuit
(August 11, 2020) . . . . . . . . . . . . App. 71

viii
Appendix F Jury Demanded Charge of the Court
in the United States District Court for
the Southern District of Texas
Houston Division
(January 23, 2019) . . . . . . . . . . . App. 73

ix
TABLE OF AUTHORITIES
Cases
Acoustic Sys., Inc. v. Wenger Corp.,
207 F.3d 287 (5th Cir. 2000). . . . . . . . . . . . . . . . 18
Allied Tube & Conduit Corp. v. Indian Head,
486 U.S. 492 (1988). . . . . . . . . . . . . . . . . . . . . . . 16
BE&K Const. Co. v. NLRB,
536 U.S. 516 (2002). . . . . . . . . . . . . . . . . . . . . . . 15
Balt. Scrap Corp. v. David J. Joseph Co.,
237 F.3d 394 (4th Cir. 2001). . . . . . . . . . . . . . . . 23
Bill Johnson’s Rests. v. NLRB,
461 U.S. 731 (1983). . . . . . . . . . . . . . . . . . . . 29, 30
Borough of Duryea v. Guarnieri,
564 U.S. 379 (2011). . . . . . . . . . . . . . . . . . . . . . . 30
Bryant v. Military Dep’t,
597 F.3d 678 (5th Cir. 2010). . . . . . . . . . . . . . . . 18
California Motor Transport Co. v. Trucking
Unlimited, 404 U.S. 508 (1972) . . . . . . . . . . 15, 30
Campbell v. PMI Food Equip. Group, Inc.,
509 F.3d 776 (6th Cir. 2007). . . . . . . . . . . . . 24, 26
Cardtoons, L.C. v. Major League Baseball Players
Ass’n, 208 F.3d 885 (10th Cir. 2000) . . . . . . 24, 28
Cheminor Drugs, Ltd. v. Ethyl Corp.,
168 F.3d 119 (3d Cir. 1999) . . . . . . . . . . . . . 23, 33

x
Clipper Exxpress v. Rocky Mountain Motor Tariff
Bureau, Inc.,
690 F.2d 1240 (9th Cir. 1982). . . . . . 24, 34, 35, 36
Dun & Bradstreet v. Greenmoss Builders,
472 U.S. 749 (1985). . . . . . . . . . . . . . . . . 28, 29, 38
Eastern Railroad Conference v. Noerr Motor Freight,
365 U.S. 127 (1961). . . . . . . . . . . . . . . . . . . passim
Feminist Women’s Health Center, Inc. v.
Mohammad, 586 F.2d 530 (5th Cir. 1978) . . . 23, 24
Garrison v. Louisiana,
379 U.S. 64 (1964). . . . . . . . . . . . . . . . . . . i, 22, 29
Gertz v. Robert Welch, Inc.,
418 U.S. 323 (1974). . . . . . . . . . . . . . . . . . . passim
Griffin v. Matherne,
471 F.2d 911 (5th Cir. 1973). . . . . . . . . . . . . . . . 20
Havoco of America, Ltd. v. Hollobow,
702 F.2d 643 (7th Cir. 1983). . . . . . . . . . . . . . . . 27
Herr v. Pequea Twp.,
274 F.3d 109 (3d Cir. 2001) . . . . . . . . . . . . . . . . 26
In re IBP Confidential Business Documents
Litigation,
755 F.2d 1300 (8th Cir. 1985). . . . . . . . . . . . 36, 37
Indus. Models v. SNF, Inc.,
716 Fed. Appx. 949 (Fed. Cir. 2017). . . . . . . . . . 27
Jennings v. Rodriguez,
138 S. Ct. 830 (2018). . . . . . . . . . . . . . . . . . . . . . 25

xi
Kottle v. Northwest Kidney Ctrs.,
146 F.3d 1056 (9th Cir. 1998). . . . . . . . . . . . . . . 36
Lebron v. Nat’l R.R. Passenger Corp.,
513 U.S. 374 (1995). . . . . . . . . . . . . . . . . . . . . . . 22
Liberty Lake Invs. v. Magnuson,
12 F.3d 155 (9th Cir. 1993). . . . . . . . . . . . . . . . . 36
Mercatus Group, LLC v. Lake Forest Hosp.,
641 F.3d 834 (7th Cir. 2011). . . . . . . . . . . . . 24, 31
New West, L.P. v. City of Joliet,
491 F.3d 717 (7th Cir. 2007). . . . . . . . . . . . . . . . 24
New York Times Co. v. Sullivan,
376 U.S. 254 (1964). . . . . . . . . . . . . . . . . . . . 29, 30
Professional Real Estate Investors, Inc. v.
Columbia Pictures Indus.,
508 U.S. 49 (1993). . . . . . . . . . . . . . . . . . . . passim
South Dakota v. Kansas City Southern Industries,
Inc., 880 F.2d 40 (8th Cir. 1989) . . . . . . . . . . . . 27
St. Joseph’s Hospital, Inc. v. Hospital Corp. of
America, 795 F.2d 948 (11th Cir. 1986) . . . . . . . 37
Theme Promotions, Inc. v. News Am. Mktg. FSI,
546 F.3d 991 (9th Cir. 2008). . . . . . . . . . . . . . . . 27
United Brotherhood of Carpenters & Joiners v.
United States, 330 U.S. 395 (1947) . . . . . . . . . . 22
United Mine Workers v. Pennington,
381 U.S. 657 (1965). . . . . . . . . . . . . . . . . . . passim

xii
Video Int’l. Prod., Inc. v. Warner-Amex Cable
Communications, Inc.,
858 F.2d 1075 (5th Cir. 1988). . . . . . . . . . . . . . . 26
Walker Process Equipment, Inc. v. Food Machinery
& Chemical Corp., 382 U.S. 172 (1965) . . . . . . . 35
Warfield v. KR Entertainment,
165 F.3d 600 (8th Cir 1999) . . . . . . . . . . . . . . . . 27
Yee v. Escondido,
503 U.S. 519 (1992). . . . . . . . . . . . . . . . . . . . . . . 22
Constitution and Statutes
U.S. Const. amend. I . . . . . . . . . . . . . . . . . . . . . . . . . 2
15 U.S.C. § 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 12
15 U.S.C. § 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 12
15 U.S.C. § 15(a). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1652 . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 28
Tex. Bus. Com. Code § 15.05(b) . . . . . . . . . . . . . . . . . 3
Tex. Bus. Com. Code § 15.21(a)(1) . . . . . . . . . . . . 3, 11

1
PETITION FOR WRIT OF CERTIORARI
Petitioners Construction Cost Data, L.L.C.; The Job
Order Contract Group, L.L.C; and Managed J.O.C.
Solutions, L.L.C. (collectively, “CCD”) respectfully seek
a writ of certiorari to review the judgments of the
District Court and United States Court of Appeals for
the Fifth Circuit.
OPINIONS BELOW
The merits opinion of the Court of Appeals is
published in the Federal Reporter as Construction Cost
Data, L.L.C. v. Gordian Grp., Inc., 814 Fed. Appx. 860
(5th Cir. 2020) and reproduced at Appendix (“App.”)
page 1. The Court of Appeals Opinion denying
Petitioners request for rehearing is not published in
the Federal Reporter but reproduced at App.71.
The District Court’s entry of a pertinent jury verdict
is reproduced at App.73, and the District Court’s denial
of a post-verdict motion for relief is available at
Construction Cost Data, L.L.C. v. Gordian Grp., Inc.,
No. 4:16-CV-0114, 2019 U.S. Dist. LEXIS 105246 (S.D.
Tex. June 24, 2019) and reproduced at App.68.
JURISDICTION
The Court of Appeals issued its merits opinion on
June 30, 2020; issued its ruling denying rehearing on
August 11, 2020; and entered Judgment on August 19,
2020. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
United States Constitution, Amendment 1 provides:
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of
speech, or of the press; or the right of the people
peaceably to assemble, and to petition the
Government for a redress of grievances.
Section of 1 of Title 15 of the United States Code
provides in relevant part:
Every contract, combination in the form of trust
or otherwise, or conspiracy, in restraint of trade
or commerce among the several States, or with
foreign nations, is hereby declared to be illegal.
Every person who shall make any contract or
engage in any combination or conspiracy hereby
declared to be illegal shall be deemed guilty of a
felony . . . .
Section 2 of Title 15 of the United States Code
provides in relevant part:
Every person who shall monopolize, or attempt
to monopolize, or combine or conspire with any
other person or persons, to monopolize any part
of the trade or commerce among the several
States, or with foreign nations, shall be deemed
guilty of a felony . . . .

3
Section 15(a) of Title 15 of the United States Code
provides in relevant part:
any person who shall be injured in his business
or property by reason of anything forbidden in
the antitrust laws may sue therefor in any
district court of the United States in the district
in which the defendant resides or is found or has
an agent, without respect to the amount in
controversy, and shall recover threefold the
damages by him sustained, and the cost of suit,
including a reasonable attorney’s fee.
Section 1652 of Title 28 of the United States Code
provides in relevant part:
The laws of the several states, except where the
Constitution or treaties of the United States or
Acts of Congress otherwise require or provide,
shall be regarded as rules of decision in civil
actions in the courts of the United States, in
cases where they apply.
Section 15.05(b) of the Texas Business and
Commerce Code provides in relevant part:
It is unlawful for any person to monopolize,
attempt to monopolize, or conspire to monopolize
any part of trade or commerce.
Section 15.21(a)(1) of the Texas Business and
Commerce Code provides in relevant part:
Any person . . . whose business or property has
been injured by reason of any conduct declared
unlawful in Subsection . . . (b) . . . of Section

4
15.05 of this Act may sue any person. . . and
shall recover actual damages sustained, interest
on actual damages for the period beginning on
the date of service of such person’s pleading
setting forth a claim under the antitrust laws
and ending on the date of judgment . . ., and the
cost of suit, including a reasonable attorney’s
fee; provided, however, that if the trier of fact
finds that the unlawful conduct was willful or
flagrant, it shall increase the recovery to
threefold the damages sustained and the cost of
suit, including a reasonable attorney’s fee;
provided that interest on actual damages as
specified above may not be recovered when
recovered damages are increased threefold.
INTRODUCTION
This case provides the Court the opportunity to
resolve a question acknowledged, but not resolved in
Professional Real Estate Investors, Inc. v. Columbia
Pictures Indus., 508 U.S. 49 (1993), regarding
whether the “Noerr-Pennington” doctrine—like all
purported First Amendment immunities—must yield
at the threshold of knowingly, recklessly, or
intentionally false statements. The case also provides
the Court an opportunity to halt the expansive use of
the doctrine by lower courts to extend well beyond its
impetus as a tool of statutory construction, to avoid
placing remedial provisions in federal statutes in
tension with the “Petition Clause” of the First
Amendment.
The doctrine now is routinely used in a bewildering
range of ways—including to undercut purely state-law

5
standards of liability regarding private misconduct,
although there is no constitutional provenance for such
use. Indeed, in this case, the misuse has been so
extreme that the doctrine purportedly protects
knowingly, recklessly, or intentionally false
statements, which never has been countenanced as a
species of misconduct afforded constitutional
protection.
The fundamentally unwarranted expansion of
Noerr-Pennington to intrude upon state-law standards
of liability, in ways that have obliterated any coherent
understanding of the doctrine as a First Amendment
immunity—presents important issues that have not
been, but should be resolved by this Court.
STATEMENT OF THE CASE
A. CCD’s Competition with Gordian in the “Job
Order Contracting” Industry
CCD and Respondents Gordian, Inc. and R.S.
Means (collectively, “Gordian”), all of whom are
“private” entities engaging in private commercial
undertakings, were competitors in the “job order
contracting” industry. App.2 – 3. Job order contracting
is a construction-industry methodology whereby pricing
information is compiled and provided to project owners,
to enable the project owners to evaluate bids for large
scale or extended duration projects. App.2 – 3. The
information therefore enables the owners to avoid the
tedium and inefficiency of fielding single bids for
ongoing or scaled work.
The principal components of the price information
include labor, material, and equipment costs for tasks

6
a contractor will be required to perform over the course
of a project. App.3. The pricing information is
memorialized in compilations referred to as “unit price
books,” and publishers of the books market and
compete against one another. App.3.
Gordian was a legacy provider within the job order
contracting industry who published a unit price book.
App.3. CCD attempted to enter the market in 2015, by
publishing a competing book. App.3.
Without factual justification, Gordian contended
CCD’s unit price book infringed upon Gordian’s
copyright and trademark. App.3. Gordian sent cease
and desist letters to CCD, App.3, and additionally sent
cease and desist letters or otherwise attempted to
dissuade various entities (including KATA
Management, LLC (“KATA”); 4Clicks Solutions, LLC
(“4Clicks”); and Texas Cooperative Purchasing
Network (“TCPN”)) from contracting with or using
CCD’s unit price book. App.3, 86 – 87, 88 – 89.
As discussed below, a jury ultimately concluded the
content of Gordian’s cease and desist letters and
Gordian’s related communications were malicious,
because the jury concluded Gordian “published a
disparaging false statement . . ., and when [Gordian]
published the statement, [Gordian] knew the falsity of
the statement or [Gordian] acted with reckless
disregard of whether the statement is false, or
[Gordian] acted with ill will or intended to interfere
. . . .” App.89 – 90 (emphasis added). CCD brought
suit against Gordian to remedy the harm caused by its

7
malicious interference with CCD’s attempt to enter and
compete within the job order contracting industry.
B. CCD’s State-Law Claims against Gordian
CCD asserted the following causes of action against
Gordian under Texas law: (1) Tortious Interference
with Existing Contract, App.84 – 87; (2) Tortious
Interference with Prospective Business Relations,
App.87 – 89; (3) Business Disparagement, App.89 – 90;
(4) Violation of the Monopoly provision of the Texas
Antitrust Act, App. 94 - 101; and (5) Violation of the
Attempted Monopoly provision of the Texas Antitrust
Act, App.102 – 103.1 CCD did not assert claims for
relief against Gordian premised on federal statute or
federal common law.
It sought relief solely under the appropriate
standards of liability Texas has established to redress,
inter alia, defamatory falsehood, injurious to a private
individual. Cf. Gertz v. Robert Welch, Inc., 418 U.S.
323, 347 (1974). The elements of several of the statelaw claims moreover are noteworthy with respect to the
standards of liability established by Texas.
The Tortious Interference with Existing Contract
claim required proof of, inter alia, “an act of
interference that was willful and intentional . . .,”
which means “the desire to interfere with the contract
or . . . the belief that interference is substantially
certain to result.” App.84, 86 (emphasis added). The
1

Gordian asserted counterclaims against CCD for copyright
infringement, unfair competition, and unjust enrichment, App.111,
but did not carry its burden of proof on the counterclaims.
App.117, 121, 123, 124, 125.

8
Tortious Interference with Prospective Business
Relations claim required proof of, inter alia, “a
conscious desire to prevent the relationship from
occurring or [knowledge] the interference was certain
or substantially certain to occur as a result of the
conduct . . . .” App.87 (emphasis added).
The Business Disparagement claim required as
conjunctive elements, proof of “a disparaging false
statement about the business . . .” and “[knowledge of]
the falsity of the statement or . . . reckless disregard of
whether the statement is false, or . . . ill will or inten[t]
to interfere with . . . economic interest . . . .” App.89
(emphasis added). The Monopoly claim under the
Texas Antitrust Act required proof of, inter alia:
“willfully acquired or maintained monopoly power in
[a] market by . . . anticompetitive conduct, as
distinguished from growth or development as a
consequence of a superior product, business acumen, or
historic accident.” App.94 – 95 (emphasis added). And
the Attempted Monopoly claim required proof of, inter
alia, “predatory or anticompetitive conduct with a
specific intent to achieve monopoly power . . . .”
App.103 (emphasis added).
All of the claims asserted against Gordian
consequently included not only standards of “fault,” cf.
418 U.S. at 347, but culpable states of mind such as
intent, desire, or willfulness as conditions of recovery.
And the Business Disparagement claim further
appended the condition that Gordian had to have made
“a disparaging false statement . . . .”

9
C. The Jury Charge and Verdict
CCD and Gordian tried their dispute to a jury, and
the above-discussed elements of CCD’s claims were
charged to the jury. The Tortious Interference with
Existing Contract claim was charged as Questions 1 –
3, with separate questions to correspond with Gordian’s
communications respectively directed to KATA,
4Clicks, and TCPN. App. 86 – 87. The Tortious
Interference with Prospective Business Relations claim
was charged as Questions 4 – 7, again with separate
questions to correspond w i t h G ordi a n’s
communications directed to KATA, 4Clicks, and TCPN,
as well as Gordian’s separate effort to interfere with
CCD’s relationship with an entity known as Region 5
Education Service Center (“Region 5”). App.88 – 89.
The Business Disparagement claim was charged as
Question 8. App.90. The Monopoly claim under the
Texas Antitrust Act was charged as Question 13,
App.101, and the Attempted Monopoly claim was
charged as Question 14, App. 103.
Gordian also was allowed to charge the jury with an
affirmative defense authorized by Texas law. “Good
faith” is an affirmative defense to a claim for Tortious
Interference with Existing Contract, and Gordian was
allowed to charge the defense as Questions 9 – 11,
corresponding with its communications directed to
KATA, 4Clicks, and TCPN. App.90 – 91.2

2

Gordian did not assert or charge state law affirmative defenses
to the Tortious Interference with Prospective Business Relations,
Business Disparagement, or Attempted Monopoly claims.

10
The jury found in favor of CCD on all but one claim.
With respect to the Tortious Interference with Existing
Contract claim (Questions 1 – 3), the jury unanimously
found in favor of CCD, App.86 – 87, and that Gordian
failed to carry its burden of proof on the good faith
affirmative defense (Questions 9 – 11), App.90 – 91.
With respect to the Tortious Interference with
Prospective Business Relations claim (Questions 4 – 7),
the jury again unanimously found in favor of CCD.
App.88 – 89.
The jury additionally found in favor of CCD on the
Business Disparagement claim (Question 8), App.90,
and the Attempted Monopoly claim under the Texas
Antitrust Act (Question 14), App.103. The Monopoly
claim under the Texas Antitrust Act is the only claim
on which the jury concluded CCD had not carried its
burden of proof. App.101.
The collective import of the jury’s findings was that
under the “appropriate standard[s] of liability” defined
by Texas, cf. 418 U.S. at 347, the jury concluded
Gordian intentionally, desired to, or willfully injured
CCD—and that Gordian also knowingly, recklessly, or
intentionally defamed CCD.
The jury therefore
awarded damages as follows:
• For Tortious Interference with Existing Contract
and Tortious Interference with Prospective
Business Relationship, the jury awarded CCD
$1,529,000 under Question 15, App.104 – 105;3
3

The jury charge included a “No Duplication” instruction directing
the jury to “not award any sum of money on any element if you
have otherwise, under some other element, awarded a sum of
money for the same loss.” App.104. The jury consequently entered

11
• For Tortious Interference with Prospective
Business Relationship specific to “Region 5,” the
jury awarded CCD $29,000 under Question 18,
App.107 – 108; and
• For the Attempted Monopoly claim, the jury
entered amounts that duplicated damages
awarded under Questions 15 and 18, App. 110 –
111; but so doing was appropriate, because
Attempted Monopoly is subject to a treble damage
remedy that required jury findings on
compensatory damages to enable calculation of
the enhanced damages. See TEX. BUS. COM. CODE
§ 15.21(a)(1).
Had the District Court deferred to the abovediscussed standards of liability dictated by the state of
Texas, and the logical, probable, and coherent pattern
discernible from the jury findings—judgment should
have been entered in CCD’s favor on Questions 1 – 8 and
14, and damages of $1,587,000 should have been
awarded CCD, with interest separately awarded. CCD
also was entitled to seek additional elements of
monetary relief such as attorneys’ fees and treble
damages under the Texas Antitrust Act (Question 14).
See TEX. BUS. COM. CODE § 15.21(a)(1).
numerical amounts as damages for the “Question 1” expression of
the Tortious Interference with Existing Contract claim and
“Question 4” expression of the Tortious Interference with
Prospective Business Relationship claim, but did not re-enter
overlapping damages for the duplicative elements regarding
liability found under Questions 2, 3, 5, or 6. App.105 – 107. The
jury likewise forwent re-entering overlapping numerical amounts
as damages for duplicative elements regarding liability found
under Question 8, for Business Disparagement. App.108 – 110.

12
Yet the District Court entered a take nothing
judgment against CCD. It did so based on its
application of the hopelessly confused jurisprudence that
has evolved in the United States Court of Appeals for
the Fifth Circuit and other circuits, purporting to define
the contours of the Noerr-Pennington doctrine. The
effect was the role and intent of the jury was improperly
nullified.
D. Gordian’s Invocation of Noerr-Pennington
The Noerr-Pennington doctrine derives from two
cases decided by this Court, Eastern Railroad
Conference v. Noerr Motor Freight, 365 U.S. 127 (1961)
and United Mine Workers v. Pennington, 381 U.S. 657
(1965). In Noerr Motor Freight, this Court considered
whether it was proper to construe the Sherman
Antitrust Act, 15 U.S.C. §§ 1 & 2, to provide a remedy to
participants in the long-haul trucking industry, who
were aggrieved when competitors in the rail industry
utilized a marketing campaign to encourage passage of
laws or regulations that would disadvantage trucking to
the advantage of rail. 365 U.S. at 128 – 29.
The railroad defendants contended their conduct “did
not constitute a violation of the Sherman Act,
presumably because that Act could not properly be
interpreted to apply either to restraints of trade or
monopolizations that result from the passage or
enforcement of laws or to efforts of individuals to bring
about the passage or enforcement of laws.” Id. at 131 –
32 (emphasis added). Notably, there was no finding in
Noerr Motor Freight that the railroad defendants had
made intentionally or recklessly false statements,
because “[t]he District Court did not expressly find that

13
any particular part of the railroads’ publicity campaign
was false in its content [,]” 365 U.S. at 133, n.8
(emphasis added) though there were questions of
exaggeration.
The issue before this Court consequently was not
whether, or the extent to which, intentionally false
statements may be actionable. The singular issue was
whether the Sherman Act should be construed to
provide a remedy for efforts to encourage legislation that
advantages one market participant to the disadvantage
of another.
This Court held the Sherman Act could not be
construed to provide a remedy under that scenario, for
two reasons:
In the first place, such a holding would
substantially impair the power of government to
take actions through its legislature and executive
that operate to restrain trade.
In a
representative democracy such as this, these
branches of government act on behalf of the
people and, to a very large extent, the whole
concept of representation depends upon the
ability of the people to make their wishes known to
their representatives.
To hold that the
government retains the power to act in this
representative capacity and yet hold, at the same
time, that the people cannot freely inform the
government of their wishes would impute to the
Sherman Act a purpose to regulate, not business
activity, but political activity, a purpose which
would have no basis whatever in the legislative
history of that Act. Secondly, and of at least

14
equal significance, such a construction of the
Sherman Act would raise important
constitutional questions. The right of petition is
one of the freedoms protected by the Bill of
Rights, and we cannot, of course, lightly impute
to Congress an intent to invade these freedoms.
365 U.S. at 137 – 38 (emphasis added). The principal
impetus for what would become known as the NoerrPennington doctrine consequently was an effort by this
Court to construe the Sherman Act, and to do so in a
manner that avoided tension with a First Amendment
protection.
That motive again was reflected in Pennington,
wherein this Court considered whether conduct by a coal
industry labor union violated the Sherman Act,
including, inter alia, efforts by the union to petition the
United States Secretary of Labor to set a minimum
wage for certain industry participants. 381 U.S. at 660.
With respect to that conduct, this Court held: “Noerr
shields from the Sherman Act a concerted effort to
influence public officials regardless of intent or purpose.”
Id. at 670. The Court further held: “Joint efforts to
influence public officials do not violate the antitrust laws
even though intended to eliminate competition. Such
conduct is not illegal, either standing alone or as part of
a broader scheme itself violative of the Sherman Act.”
Id.
Pennington consequently did not purport to expand
the principle of statutory construction articulated in
Noerr Motor Freight. It merely reaffirmed this Court’s
conclusion that the Sherman Act cannot be construed to
apply to efforts to petition the government for redress, in

15
part because political activity is not the focus of the
Sherman Act (irrespective of motive), but also given the
problematic implications any such construction would
cause relative to the First Amendment right to petition.
This Court’s subsequent Noerr-Pennington
jurisprudence has occasioned only modest adjustments
to the understanding of the doctrine relative to the
manner in which it was applied in Noerr Motor Freight
and Pennington. The Court has, for instance, held
petitioning a court or administrative agency, not just a
legislative body, is beyond the scope of federal anti-trust
laws. See California Motor Transport Co. v. Trucking
Unlimited, 404 U.S. 508, 510 – 11 (1972).
In
Professional Real Estate Investors, Inc. v. Columbia
Pictures Indus., the Court also clarified a cautionary
observation made in Noerr Motor Freight that “[t]here
may be situations in which a publicity campaign,
ostensibly directed toward influencing governmental
action, is a mere sham to cover what is actually nothing
more than an attempt to interfere directly with the
business relationships of a competitor and the
application of the Sherman Act would be justified[,]” 365
U.S. at 144, (emphasis added), by formally articulating
the elements of what is now known as the “sham
exception” to Noerr-Pennington. See 508 U.S. 49, 51
(1993).
The Court additionally concluded it is
appropriate to treat Noerr-Pennington as a more general
tool to construe the scope of federal statutes, not just the
Sherman Act. See, e.g., BE&K Constr. Co. v. NLRB, 536
U.S. 516, 526 (2002) (“This case raises the same
underlying issue of when litigation may be found to
violate federal law, but this time with respect to the

16
[National Labor Relations Act] rather than the Sherman
Act.”).
But this Court has not otherwise shown inclination
to further expand the scope of Noerr-Pennington
principles. In Allied Tube & Conduit Corp. v. Indian
Head, for instance, the Court declined to extend the
doctrine to petitioning activity directed to a private
industry association, which formulated product and
performance standards for the industry, because “no
official authority has been conferred on it by any
government, and the decisionmaking body of the
Association is composed, at least in part, of persons with
economic incentives to restrain trade.” 486 U.S. 492,
501 (1988).
This retrospective on the Court’s (restrained)
treatment of Noerr-Pennington is material to the
underlying facts, because in this matter, CCD did not
assert a claim under federal anti-trust laws, the
National Labor Relations Act, or in any other respect
this Court has concluded is subject to Noerr-Pennington
scrutiny. CCD asserted purely state-law claims for relief
and secured favorable jury findings and damage awards
based on the state-law principles.
Yet the findings and damages were negated, because
the District Court allowed Gordian to charge the jury
with what the District Court perceived to be the NoerrPennington doctrine, as “Question 12.” App.91 – 94.
The District Court then misapplied what this Court has
treated as a tool of statutory construction—with
derivative First Amendment implications—to negate the
jury’s unanimous findings on Questions 1 – 8 and 14, as
well as the award of damages.

17
The most fundamental error with the District Court’s
charge was that it did not include any predicate question
regarding whether Noerr-Pennington even applied under
the facts presented to the jury. Over CCD’s repeated
objections, the District Court simply presumed the
Noerr-Pennington doctrine applied and only charged the
jury with the elements of the “sham exception”
articulated in Professional Real Estate Investors, Inc.,
because Question 12 read as follows:
Was [Gordian’s] prelitigation correspondence
“objectively baseless in the sense that no
reasonable litigant could reasonably expect
success on the merits?”
Answer “Yes” or “No”: ___
If the activity of [Gordian] was objectively
baseless, was the subjective intent merely to
interfere with the CCD Parties?
Answer “Yes” or “No”: ___
App.94 (emphasis added). That charge language was
premised on the following holding in Professional Real
Estate Investors, Inc., addressing the two-pronged
criteria for the sham exception (as opposed to the
threshold issue regarding when the Noerr-Pennington
applies):
We now outline a two-part definition of “sham”
litigation. First, the lawsuit must be objectively
baseless in the sense that no reasonable litigant
could realistically expect success on the
merits. . . . Under th[e] second part of our
definition of sham, the court should focus on

18
whether the baseless lawsuit conceals “an
attempt to interfere directly with the business
relationships of a competitor,” . . ., through the
“use [of] the governmental process -- as opposed
to the outcome of that process -- as an
anticompetitive weapon,” . . . .
508 U.S. at 60 – 61 (emphasis added).
CCD was adamant, by contrast, that the District
Court was obligated to include language that would
enable the jury to make a preliminary finding regarding
whether the doctrine applied, before proceeding to the
secondary analysis of whether an exception to the
doctrine was proved. A bifurcated approach of the kind
is far from academic, because in the Fifth Circuit, NoerrPennington is an affirmative defense on which Gordian
should have had the initial burden of proof. See, e.g.,
Acoustic Sys., Inc. v. Wenger Corp., 207 F.3d 287, 296
(5th Cir. 2000).
Accordingly, Gordian had the burden to prove
application of the doctrine, and only upon satisfaction of
that burden should the burden have shifted to CCD to
prove the sham exception. Cf. Bryant v. Military Dep’t,
597 F.3d 678, 690 (5th Cir. 2010). CCD therefore
argued, in several contexts, that because Gordian was
purporting to invoke Noerr-Pennington as a First
Amendment principle, “misrepresentations do not
qualify for immunity under Noerr-Pennington[,]” App.31,
and the jury should have been instructed accordingly to
enable the jury to assess whether Gordian’s
misrepresentations disqualified it from invoking NoerrPennington.

19
Yet the District Court refused to acknowledge this
principle and declined to include a qualifying condition
in the jury charge in the event the jury concluded (as it
ultimately did) Gordian knowingly, recklessly, or
intentionally made false statements. The District Court
instead “reiterate[d] its position that the Fifth Circuit
has not adopted this exception.” App.31 (emphasis
added).
Even the District Court’s nomenclature regarding the
reach of Noerr-Pennington, referring to it as an
“exception,” illuminated how far afield the
understanding of the doctrine has become. It is not an
invocation of an “exception” to Noerr-Pennington to
assess as a threshold matter whether there is any
recognized basis in law for the doctrine to apply.
An “exception” would be germane only if the doctrine
applies. But if the doctrine simply does not apply to a
species of conduct—because there is no contextual basis
for application—it would be conceptually awkward to
refer to that as an “exception.” It instead is a more
fundamental inquiry into the limited “scope” of the
doctrine.
The jurisprudence of the respective circuits obscures
this fundamental difference. The District Court, in turn,
failed to appreciate the difference and allowed the
Noerr-Pennington “sham exception” to be charged as if
it was a comprehensive metric of: (1) whether NoerrPennington applied, (2) whether CCD had proved the
sham exception to Noerr-Pennington, and (3) whether
the doctrine immunized Gordian from the state-law
liabilities found by the jury. App.94. The jury in turn
concluded the elements of the sham exception had not

20
been proved, which the District Court perceived to mean
Gordian was entitled to complete immunity from the
liabilities the jury otherwise had found under Questions
1 – 8 and 14.
E. CCD’s Trial and Appellate Contentions that the
Jury Findings Were Irreconcilable with NoerrPennington
CCD concluded it would be incomprehensible for the
District Court to enter judgment in favor of Gordian
based upon a tortured understanding of NoerrPennington, relative to the jury’s express findings under
Questions 1 – 8 and 14 that Gordian had intent, desire,
or the will to harm CCD and that Gordian additionally
made “a disparaging false statement.” CCD therefore
contended, in various ways, the import the District
Court and Gordian were attempting to attribute to
Question 12 violated a “reconciliation” doctrine
recognized in the Fifth Circuit, whereby courts are
obligated to assess:
whether the answers may fairly be said to
represent a logical and probable decision on the
relevant issues as submitted, even though the
form of the issue or alternative selective answers
prescribed by the judge may have been the likely
cause of the difficulty and largely produced the
apparent conflict.
Griffin v. Matherne, 471 F.2d 911, 915 (5th Cir. 1973)
(emphasis added). As discussed above, CCD also
repeatedly pressed the position that misrepresentations
in no event are entitled to First Amendment protection,

21
which necessarily should have disqualified Gordian from
relying on Noerr-Pennington.4
The District Court rejected these contentions, and in
particular rejected the contention regarding the
constitutional limits of the First Amendment, based on
“substantial variation between the circuits . . .,” App.35,
whereby the Fifth Circuit has not recognized falsehood
as a grounds to foreclose application of NoerrPennington, whereas other circuits—using inconsistent
approaches—have. App.35 – 40. The Court of Appeals
in turn acknowledged CCD’s contention that the District
Court’s treatment of Question 12 was irreconcilable with
the jury’s other findings and CCD contended NoerrPennington should not be applied to false statements.
App.12 – 17, 19 – 20. The Court of Appeals nevertheless
rejected these contentions and affirmed the District
Court’s take nothing judgment against CCD.5
4

CCD asserted additional variations of these core contentions, but
all converged on the fundamental point that the District Court’s
construction of Question 12 was an illogical outlier relative to the
jury’s findings of intent, desire, and ill will. See, e.g., App.7 – 12,
17 – 19, 68 – 69.
5

In the District Court and Court of Appeals, CCD repeatedly
asserted that in light of the elements of the state law findings
against Gordian, Noerr-Pennington could not excuse Gordian’s
conduct. At oral argument before the Court of Appeals, CCD
emphasized the Question 8 Business Disparagement finding as a
particularly notable example of this phenomenon, because under
Texas law, that cause of action incorporates falsehood criteria that
necessarily disqualify First Amendment protections. The Court of
Appeals declined to consider this specific example, because it
perceived the issue had not been presented in CCD’s appellate
briefing, see App.17, n.22 & App.20, n.25, although the Court of
Appeals acknowledged CCD had raised the specific example in the
District Court. App.72.

22
The rulings cannot be reconciled with this Court’s
directives that “the knowingly false statement and the
false statement made with reckless disregard of the
truth, do not enjoy constitutional protection[,]” Garrison
v. Louisiana, 379 U.S. 64, 75 (1964), or that states “may
define for themselves the appropriate standard of
liability for a publisher or broadcaster of defamatory

CCD respectfully disagrees with the Court of Appeals’
perception the issue was not adequately raised in the appellate
briefing. It otherwise notes the legal effect of Texas liability
standards, relative to a purported constitutional protection, is a
pure issue of law, of the variety this Court has expressed
willingness to review notwithstanding questions regarding
whether or how an issue was raised. See, e.g., United Brotherhood
of Carpenters & Joiners v. United States, 330 U.S. 395, 412 (1947);
(“We have the power to notice a ‘plain error’ though it is not
assigned or specified.”).
But in any event, the Court of Appeals did (paradoxically)
acknowledge CCD had preserved and properly asserted its
contention “the district court erroneously focused on whether the
‘sham’ exception to the doctrine was established without first
deciding whether the doctrine should have even been applied.”
App.19. The Court of Appeals indeed acknowledged the basis for
CCD’s contention was that “[b]ecause misrepresentations and false
statements are not entitled to First Amendment protections, they
cannot be immunized under Noerr-Pennington whether or not any
exception is applicable.” App.19. That is the fundamentally
unresolved issue—subject to conflicting treatment by
circuits—which warrants review. The matter consequently was
preserved, and all arguments supporting a finding of error in that
regard may be considered by this Court. Cf. Lebron v. Nat’l R.R.
Passenger Corp., 513 U.S. 374, 379 (1995) (“Our traditional rule is
that ‘once a federal claim is properly presented, a party can make
any argument in support of that claim; parties are not limited to
the precise arguments they made below.’” (quoting Yee v.
Escondido, 503 U.S. 519, 534 (1992)).

23
falsehood injurious to a private individual.” Gertz, 418
U.S. at 347.
REASONS FOR ALLOWING THE WRIT
A. Certiorari is Warranted regarding the
Unworkable State of Noerr-Pennington
Jurisprudence
It no longer is possible to discern coherent
parameters regarding what the Noerr-Pennington
doctrine is, what conduct is subject to the doctrine, to
whom it applies, who has the burden of proof regarding
application of the doctrine, and who has the reciprocal
burden to rebut application of the doctrine. These are
not academic concerns. The confusion instead has
created conditions whereby circuit courts have developed
a vexing, incoherent, and conflicting array of rationales
for the doctrine’s use and application, few of which bear
any clear connection to the historical principles
articulated by this Court.
For instance, several circuits, including the Fifth
Circuit, treat the doctrine as a First Amendment
immunity. See, e.g., Cheminor Drugs, Ltd. v. Ethyl
Corp., 168 F.3d 119, 120 (3d Cir. 1999) (“the NoerrPennington doctrine, which protects the right of citizens
and corporations to petition the government for
grievances . . . is based on the First Amendment of the
United States Constitution . . . .”); Balt. Scrap Corp. v.
David J. Joseph Co., 237 F.3d 394, 398 (4th Cir. 2001)
(“The Noerr-Pennington doctrine guarantees citizens
their First Amendment right to petition the government
for redress without fear of antitrust liability.”); Feminist
Women’s Health Center, Inc. v. Mohammad, 586 F.2d

24
530, 542 (5th Cir. 1978) (“Although the Court’s Noerr
opinion suggested that petitioning activity is exempt
because the Sherman Act was simply not designed to
reach such conduct, it is now clear that the doctrine is
rooted in the first amendment’s guarantee of the right to
petition.”); Campbell v. PMI Food Equip. Group, Inc.,
509 F.3d 776, 790 (6th Cir. 2007) (“The doctrine is, at
bottom, founded upon a concern for the First
Amendment right to petition and, therefore, has been
applied to claims implicating that right.”); Mercatus
Group, LLC v. Lake Forest Hosp., 641 F.3d 834, 847 (7th
Cir. 2011) (“Noerr-Pennington has been extended beyond
the antitrust laws, where it originated, and is today
understood as an application of the first amendment’s
speech and petitioning clauses.”) (quoting New West,
L.P. v. City of Joliet, 491 F.3d 717, 722 (7th Cir. 2007));
Clipper Exxpress v. Rocky Mountain Motor Tariff
Bureau, Inc., 690 F.2d 1240, 1263 (9th Cir. 1982) (“Noerr
immunity is based on the first amendment right to
petition and to seek to influence governmental action.”).
Although it is not unreasonable to ascribe First
Amendment immunity to the “petitioning” activity at
issue in Noerr Motor Freight and Pennington—it is not
at all clear why courts forgo a direct reference to the
First Amendment right to petition to instead refer to
“Noerr-Pennington” as purported justification for
protecting that right. Cf. Cardtoons, L.C. v. Major
League Baseball Players Ass’n, 208 F.3d 885, 889 – 90
(10th Cir. 2000) (“While we do not question the
application of the right to petition outside of antitrust, it
is a bit of a misnomer to refer to it as the NoerrPennington doctrine. . . . In our view, it is more
appropriate to refer to immunity as Noerr-Pennington

25
immunity only when applied to antitrust claims. In all
other contexts, . . . such immunity derives from the
right to petition.”).
And while it is true the rulings in Noerr Motor
Freight and Pennington—and this Court’s subsequent
rulings—treat the doctrine as a principle of statutory
construction informed by the indirect imprint of
constitutional protections, that is little more than a
context-specific application of the commonly accepted
principle that “[u]nder the constitutional-avoidance
canon, when statutory language is susceptible of
multiple interpretations, a court may shun an
interpretation that raises serious constitutional doubts
and instead may adopt an alternative that avoids those
problems.” Jennings v. Rodriguez, 138 S. Ct. 830, 836
(2018). In no other readily identifiable context does this
principle require invocation of a name-specific doctrine
(other than “constitutional-avoidance”) to ensure faithful
application—yet Noerr-Pennington only infrequently is
thought of as reference to an incident in which this
Court employed the constitutional-avoidance canon. It
instead has become the shorthand for some form of illdefined protection, with only a vague connection to
constitutional edict.
This might be innocent enough but for the
remarkable confusion this shift in understanding has
occasioned. It is common practice for a party defendant
to do as Gordian did in this litigation, by invoking
“Noerr-Pennington” to immunize what otherwise would
be legally sanctionable conduct—without regard for the
source, character, or limitations of the purported
immunity. This occurs because Noerr-Pennington—by

26
fiat—has taken on a life of its own, serving as an allpurpose “get out of jail” free card for defendants.
As stated above, circuit courts make rhetorical
allusions to the First Amendment character of the
doctrine—but rarely engage in further reflection
regarding how that character mandates the doctrine
must align with this Court’s jurisprudence delimiting
restrictive considerations, such as thresholds at which
First Amendment protections expire. For instance,
several circuits simply take on faith Noerr-Pennington
immunizes against state law principles of liability, often
regarding private actors and conflicts that arose
regarding matters of purely private concern. See, e.g.,
Herr v. Pequea Twp., 274 F.3d 109, 116 – 17 (3d Cir.
2001) (“The law applied in [Professional Real Estate
Investors, Inc.] is generally referred to in the case law as
the Noerr-Pennington doctrine. Since [then], the courts
of appeals have frequently held that the restrictions on
liability there recognized are applicable to liability under
state tort laws . . . .”); Video Int’l. Prod., Inc. v. WarnerAmex Cable Communications, Inc., 858 F.2d 1075, 1084
(5th Cir. 1988) (“We find it easy to agree that the same
rationale under antitrust law that supports
[defendant’s] petitions to the City also serves to protect
[defendant] from the tort claim. There is simply no
reason that a common-law tort doctrine can any more
permissibly abridge or chill the constitutional right of
petition than can a statutory claim such as antitrust.”);
Campbell, 509 F.3d at 790 (“Although the NoerrPennington doctrine was initially recognized in the
antitrust field, the federal courts have by analogy
applied it to claims brought under both state and federal
laws, including common law claims of tortious

27
interference.”); Havoco of America, Ltd. v. Hollobow, 702
F.2d 643, 649 (7th Cir. 1983) (“the doctrine has been
applied to protect the First Amendment right to petition
against claims of tortious interference with business
relationships.”); South Dakota v. Kansas City Southern
Indus., Inc., 880 F.2d 40, 50 (8th Cir. 1989), overruled on
unrelated grounds by Warfield v. KR Entertainment, 165
F.3d 600, 601 (8th Cir 1999) (“there are certain
privileged activities which may result in interference of
contractual relationships but which shall not incur
liability.
One such activity involves the first
amendment right to petition the government for redress
of grievances. The Noerr-Pennington doctrine has been
applied in evaluating whether this particular activity is
entitled to protection from liability.”); Theme
Promotions, Inc. v. News Am. Mktg. FSI, 546 F.3d 991,
1007 (9th Cir. 2008) (“we hold that the Noerr-Pennington
doctrine applies to [the] state law tortious interference
with prospective economic advantage claims.”); Indus.
Models v. SNF, Inc., 716 Fed. Appx. 949, 956 n.5 (Fed.
Cir. 2017) (“Although Noerr-Pennington arose in the
antitrust context, courts have extended it to protect
other claims, including common law tortious
interference claims.”).
And in this matter, the lower courts extended this
reasoning to even business torts based unconditionally
on disparaging false statements. Yet it is exceedingly
rare for courts to give thought to this Court’s decades-old
admonition that “so long as they do not impose liability
without fault, the States may define for themselves the
appropriate standard of liability for a publisher or
broadcaster of defamatory falsehood injurious to a
private individual.” Gertz, 418 U.S. at 347 (emphasis

28
added). That admonition since has been attributed to
recognition “speech on matters of purely private concern
is of less First Amendment concern.” Dun & Bradstreet
v. Greenmoss Builders, 472 U.S. 749, 759 (1985).
Apart from the underappreciated operation of the
principle addressed in Gertz with respect to states’
interest in protecting against defamatory statements—it
appears the circuit courts likewise have given little
thought to why exactly state’s interest should be
assumed to yield to Noerr-Pennington in any other
context. The courts instead act as if the label “First
Amendment protection” imbues Noerr-Pennington with
power to negate purely state liability, even when
premised on standards the states deem
“appropriate”—simply because. But the constitutional
provenance for this practice is dubious, which raises
significant concerns regarding the conventional
understanding of “rules of decision” principles. Cf. 28
U.S.C. § 1652 (“The laws of the several states, except
where the Constitution or treaties of the United States
or Acts of Congress otherwise require or provide, shall
be regarded as rules of decision in civil actions in the
courts of the United States, in cases where they apply.”).
Indeed, in a rare instance when a court—the Tenth
Circuit—reflected upon these concepts, the
inapplicability of Noerr-Pennington to private conduct
was treated as self-evident. Cf. Cardtoons, L.C., 208
F.3d at 891 – 92 (“statements made in a letter
threatening litigation are not absolutely protected by the
petition clause of the First Amendment and are subject
to the principles of state common law and state
statutory law. . . . A letter from one private party to

29
another private party simply does not implicate the
right to petition, regardless of what the letter
threatens.”). But that degree of reflection has proven to
be the exception, not the rule.
The scarcity of reflection on the contours of the First
Amendment also has led to markedly inconsistent
approaches regarding how indiscriminate use of NoerrPennington creates irreconcilable conflicts with this
Court’s repeated admonition there simply is no
constitutional right to make maliciously false
statements. As stated above, in Garrison, the Court
held “the knowingly false statement and the false
statement made with reckless disregard of the truth, do
not enjoy constitutional protection . . . .” 379 U.S. at 75.
In New York Times Co. v. Sullivan, this Court held even
in relation to protections afforded the press in matters
of public concern—now understood as the “highest rung”
in the First Amendment hierarchy, see 472 U.S. at
759—an aggrieved public official could recover for libel
if he proved the offending statement was made with
“‘actual malice’ -- that is, with knowledge that it was
false or with reckless disregard of whether it was false
or not.” 376 U.S. 254, 280 (1964).
In Gertz, when again addressing the relatively broad
First Amendment protection afforded members of the
press, the Court recognized “there is no constitutional
value in false statements of fact.” 418 U.S. at 340. In
Bill Johnson’s Rests. v. NLRB, the Court held the
complementary rights to petition, and speak, under the
First Amendment both terminate at the threshold of
dishonest conduct: “Just as false statements are not
immunized by the First Amendment right to freedom of

30
speech, . . ., baseless litigation is not immunized by the
First Amendment right to petition.” 461 U.S. 731, 743
(1983). And even in California Motor Transport Co.,
which was a Noerr-Pennington case, this Court held:
“There are many other forms of illegal and
reprehensible practice which may corrupt the
administrative or judicial processes and which may
result in antitrust violations. Misrepresentations,
condoned in the political arena, are not immunized
when used in the adjudicatory process.” 404 U.S. at 513.
There consequently is no context in which this Court
has countenanced constitutional protection for “actual
malice”—as the term was used in New York Times Co.
v. Sullivan to refer to knowingly, recklessly, or
intentionally false statements. Yet the Noerr-Pennington
jurisprudence of the lower courts—now run amok—has
obscured even this point.
And it is no answer to this dilemma that NoerrPennington most often is perceived as a protection of the
First Amendment right to petition, whereas much of this
Court’s jurisprudence regarding false statements is
contextualized by disputes regarding freedom of the
press or speech. On that point, this Court has held:
“speech contained within a petition is subject to the
same standards for defamation and libel as speech
outside a petition.” Borough of Duryea v. Guarnieri, 564
U.S. 379, 389 (2011) (emphasis added).
Circuit authority accounts for none of these
principles, attempts to account for the principles in ways
that are conceptually awkward, and in any event
conflict. In this matter, the District Court and Fifth
Circuit did not recognize falsehood as a categorical

31
disqualification of Noerr-Pennington immunity; hence,
their failure to acknowledge the merit of CCD’s protest
it is incomprehensible a jury, in multiple ways, found
Gordian engaged in malicious deceit—yet NoerrPennington immunized Gordian.
Other Circuits, by contrast, do seem to ascribe import
to the prospect of misrepresentations, although their
methods cannot be reconciled. The Seventh Circuit
recognizes that at least for purposes of adjudicative
proceedings, “there is little doubt that fraudulent
misrepresentations may render purported petitioning
activity a sham not protected from antitrust liability.”
Mercatus Group, LLC, 641 F.3d at 842, 849.
Although the Seventh Circuit’s approach is far
superior to the perspective that fraudulent
misrepresentations have no disqualifying effect on
Noerr-Pennington—the Seventh Circuit’s approach still
has shortcomings, because the court treats fraud as a
“branch of the sham exception to Noerr-Pennington.” Id.
at 842. As such, fraud is placed on a procedural par
with the two-pronged criteria for the sham exception
articulated in Professional Real Estate Investors, Inc.,
which is problematic for two reasons.
First, Professional Real Estate Investors, Inc. does
not purport to authorize this practice. In that case, this
Court noted the party aggrieved by challenged conduct
had not “‘allege[d] that the [copyright] lawsuit involved
misrepresentations’ . . . .” 508 U.S. at 54. Accordingly,
the Court created the two-pronged sham exception, but
discussed it as a consideration apart from how
misrepresentations fit within the Noerr-Pennington
scheme, because falsehood was not before the Court:

32
In surveying the “forms of illegal and
reprehensible practice which may corrupt the
administrative or judicial processes and which
may result in antitrust violations,” we have noted
that “unethical conduct in the setting of the
adjudicatory process often results in sanctions”
and that “misrepresentations, condoned in the
political arena, are not immunized when used in
the adjudicatory process.” . . . . We need not
decide here whether and, if so, to what extent
Noerr permits the imposition of antitrust liability
for a litigant’s fraud or other misrepresentations.
508 U.S. at 61, n.6 (emphasis added).
This Court therefore left open the question CCD now
requests it resolve—but in doing so, this Court did not
appear to contemplate the approach utilized by the
Seventh Circuit, whereby “fraud or other
misrepresentations” are accounted for as a subset of the
sham exception. The Court discussed
misrepresentations as if parallel to the concerns that
animate the sham exception—and there is good reason
for the distinction.
As discussed above, in circuits such as the Fifth
Circuit, Noerr-Pennington is an affirmative defense on
which a defendant has the burden of proof, whereas the
sham exception is a rebuttal to the defense for which a
plaintiff has the burden of proof. Imbedding the issue of
“fraud or other misrepresentations” within the sham
exception therefore would perpetuate the conceptually
awkward notion that a First Amendment doctrine that
categorically should not apply to maliciously false
statements, nevertheless is treated in like manner to a

33
sham exception that necessarily assumes the doctrine
applies.
This approach would raise serious questions
regarding how precisely to charge a jury with a coherent
method for it to first determine whether the doctrine at
all applies—before considering an exception. The
Seventh Circuit’s approach is questionable because it
does not account for this.
The Third Circuit also has suggested
misrepresentations are excluded from Noerr-Pennington
protection, but the contours of the Third Circuit’s
doctrine are particularly obtuse, because the court held:
“a material misrepresentation that affects the very core
of a litigant’s . . . case will preclude Noerr-Pennington
immunity, but not every misrepresentation is material
to the question of whether a petition . . . had an objective
basis.” Cheminor Drugs, Ltd., 168 F.3d at 124
(emphasis in original). It is not clear whether the Third
Circuit treats misrepresentation as a subset of the sham
exception or parallel consideration, because the Third
Circuit acknowledged this Court had not “addressed how
alleged misrepresentations affect Noerr-Pennington
immunity or the sham exception to Noerr-Pennington
immunity.” Id at 123 (emphasis added). It therefore
“decline[d] to carve out a new exception . . .”, id., and
held it is appropriate to “determine whether [a] petition
was objectively baseless under the Supreme Court’s test
in [Professional Real Estate Investors, Inc.], without
regard to those facts that [one party] alleges [the other
party] misrepresented.” 168 F.3d at 123 (emphasis in
original).

34
Although the quoted language suggested the Third
Circuit wholly discounted the effect of
misrepresentations when analyzing the “objectively
baseless” prong of the sham exception, as stated above,
the Third Circuit also held if misrepresentations “infect
the core” of petitioning activity, id., the activity is
beyond Noerr-Pennington immunity. These statements
first make it difficult to discern a workable framework
within the Third Circuit, and certainly illuminate the
absence of uniformity between the circuits.
The Ninth Circuit’s approach to misrepresentations
further illustrates the inter-circuit conflict. In Clipper
Exxpress v. Rocky Mountain Motor Tariff Bureau, Inc.,
the Ninth Circuit held: “There is no first amendment
protection for furnishing with predatory intent false
information to an administrative or adjudicatory body.
The first amendment has not been interpreted to
preclude liability for false statements. For example,
defamatory statements can be made the basis for
liability.” 690 F.2d at 1261.
Indeed, in Clipper Exxpress, the defendant invoked
Noerr-Pennington as purported grounds for immunity,
and the Ninth Circuit considered whether various acts
by the defendant disqualified application of the
immunity under the sham exception. Id. at 1251. But
when the Ninth Circuit made the foregoing observation
regarding the limited scope of First Amendment
protections, it was not purporting to scrutinize the
defendant’s false statements through the lens of NoerrPennington.
It instead treated fraudulent misrepresentations as
implicating standalone considerations regarding the

35
viability of immunity and concluded there is no
immunity for falsehoods. In so doing, the Ninth Circuit
invoked a distinct principle commonly known as the
“Walker-Process” doctrine, which derives from this
Court’s holding in Walker Process Equipment, Inc. v.
Food Machinery & Chemical Corp., 382 U.S. 172, 173
(1965). 690 F.2d at 1260 (“Imposing antitrust liability
for supplying fraudulent information in an
administrative proceeding derives from Walker Process
Equipment, Inc. . . .”).
In Walker Process, this Court considered whether a
claim could be stated under the Sherman Antitrust Act
if an aggrieved party alleged that as a means to impair
competition, a market participant procured a patent
through fraud. 382 U.S. at 173. Without regard to the
Court’s parallel Noerr-Pennington jurisprudence (which
had not considered allegations of outright fraud), this
Court held “Walker’s counterclaim alleged that [the
defendant] obtained the patent by knowingly and
willfully misrepresenting facts to the Patent Office.
Proof of this assertion would be sufficient to strip the
[defendant] of its exemption from the antitrust laws.”
382 U.S. at 177 (emphasis added).
Accordingly, even in the narrow context of federal
antitrust laws, Walker Process is understood by some
courts to foreclose immunity for intentionally or willfully
false conduct.6 For that reason, in Clipper Exxpress, the
6

By contrast, for reasons that smack of arbitrariness, other courts
have elected not to treat the principle established in Walker
Process as a universal means to assess whether constitutional
immunity, or even antitrust immunity, is foreclosed by falsehood,
because they treat Walker Process as a patent-specific principle.
Cf. App.35.

36
Ninth Circuit segregated its analysis of whether
falsehoods are immunized under the First Amendment,
from the discrete consideration of whether other conduct
was subject to Noerr-Pennington immunity. See also
Liberty Lake Invs. v. Magnuson, 12 F.3d 155, 159 (9th
Cir. 1993) (holding that the ruling in Professional Real
Estate Investors, Inc. “does not obviate application of the
Court’s two-part test for determining sham litigation in
the absence of proof that a party’s knowing fraud upon,
or its intentional misrepresentations to, the court
deprive the litigation of its legitimacy.”) (emphasis
added).
The Ninth Circuit’s analysis in Clipper Exxpress
closely aligns with what CCD respectfully submits
should by the paradigm for viewing questions of
constitutional immunity. But the Ninth Circuit since
has complicated even its treatment of the paradigm, by
aligning with the view that misrepresentations are a
subset of considerations properly addressed under the
sham exception. Cf. Kottle v. Northwest Kidney Ctrs.,
146 F.3d 1056, 1060 (9th Cir. 1998).
Consequently, only some circuits treat the prospect
of misrepresentation as a standalone, threshold
disqualification of Noerr-Pennington immunity. For
instance, in In re IBP Confidential Business Documents
Litigation, the Eight Circuit held: “Noerr-Pennington
does not necessarily and absolutely preclude liability for
damages resulting from defamatory statements made in
the course of petitioning the government. Thus even
where federal courts have dismissed other claims on
Noerr-Pennington grounds, they have declined to hold

37
pendent state law defamation claims precluded by
Noerr-Pennington.” 755 F.2d 1300, 1313 (8th Cir. 1985).
And in St. Joseph’s Hospital, Inc. v. Hospital Corp. of
America, the Eleventh Circuit held:
The district court in a rather lengthy opinion
focused almost entirely on the “sham exception”
and whether the plaintiffs had alleged a cause of
action which would come within that exception.
In order to find that a situation falls within an
exception to a general rule, it must first be clear
that the general rule itself is applicable. The
plaintiff here has alleged misrepresentations
before a governmental agency.
When a
governmental agency . . . is passing on specific
certificate applications it is acting judicially.
Misrepresentations under these circumstances do
not enjoy Noerr immunity.
795 F.2d 948, 955 (11th Cir. 1986) (emphasis added).
As occurred before the District Court and Court of
Appeals in this matter—this confused landscape makes
it impossible to intelligibly assess, assert, and challenge
the operation of Noerr-Pennington. There simply is no
common language that can be used to ascribe features to
the doctrine. And this case illuminates how the
unwieldy character of the doctrine causes material
prejudice to litigants, undermines the prerogative of the
states to define appropriate standards of liability, and
improperly nullifies the role of juries to adjudicate statelaw disputes.

38
B. Certiorari is Warranted because the Jury’s
Findings Gordian Made Maliciously False
Statements Illuminates the Inequitable and
Arbitrary Impacts of Noerr-Pennington
Merits consideration in this case will not occasion a
mere academic inquiry into the evils of the profligate,
but unwarranted, expansion of Noerr-Pennington to
“constitutionalize” spheres of state law never before
contemplated by this Court, cf. 472 U.S. at 766, and
afford greater protection than what the constitution
purports to afford bad actors. Nor does the ultimate
disposition of this case depend upon unresolved
questions of fact, which will require further
consideration after this Court brings much-needed
clarity to the presently unworkable state of NoerrPennington jurisprudence.
The jury in the District Court already has concluded
Gordian “published a disparaging false statement . . .,
and when [Gordian] published the statement, [Gordian]
knew the falsity of the statement or [Gordian] acted with
reckless disregard of whether the statement is false, or
[Gordian] acted with ill will or intended to interfere
. . . .” App. 89 – 90 (emphasis added). The jury
otherwise has concluded Gordian’s harm to CCD was
“willful and intentional . . .,” App.84, 86 (emphasis
added), done with “a conscious desire . . .” App.87 – 88
(emphasis added), and was “predatory or
anticompetitive . . . with a specific intent . . . .” App.103
(emphasis added).
Gordian did not preserve challenges to the jury’s fact
findings. The sanctity of the findings are not subject to
further dispute.

39
The fundamental considerations that must be
resolved by this Court consequently are whether fact
findings of the kind in this matter—based on state law
standards of liability—will be subject to NoerrPennington immunity or some other constitutional
immunity not before articulated by this Court. This
Court’s First Amendment jurisprudence suggests no
basis for any such immunity, nor could a newly created
immunity be reconciled with the varied prongs of this
Court’s existing First Amendment jurisprudence. The
issues consequently are narrow, fully developed, of
significant consequence to federal jurisprudence, and
should be decided by this Court.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
Nolan C. Knight
Counsel of Record
Munsch Hardt Kopf & Harr, P.C.
3800 Ross Tower
Suite 3800
500 North Akard
Dallas, Texas 75201
(214) 855-7500
nknight@munsch.com
Counsel for Petitioners

